                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                     Audit of International Boundary

                                   And Water Commission Construction

                                   Contract With Sun Belt Builders, Inc.,

                                       Using Funds Provided by the

                                  American Recovery and Reinvestment Act


                                          Report Number AUD/CG-12-11, December 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                                United States Department of State
                                                                and the Broadcasting Board of Governors

                                                                Office ofInspector General


                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the International Boundary and Water Commission's (IBWC)
compliance with Federal, Department, and American Recovery and Reinvestment Act (Recovery
Act) acquisition management practices. The report is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

       OIG contracted with the independent public accountant, Cotton & Company, LLP, to
perform this audit. The contract required that Cotton perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Cotton's report is included.

       Cotton identified three areas in which improvements could be made: complying with all
relevant Federal laws and regulations, including those of the Recovery Act; having adequate
processes and systems in place to collect information required to be reported by the Recovery
Act; and providing complete and accurate information as required by the Recovery Act.

        OIG evaluated the nature, extent, and timing of Cotton's work; monitored progress
throughout the audit; reviewed Cotton's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. OIG concurs with Cotton's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. OIG ' s analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                       Harold W. Geisel
                                       Deputy Inspector General
                                      UNCLASSIFIED



                                                




Audit of International Boundary and Water Commission Construction Contract With
Sun Belt Builders, Inc., Using Funds Provided by the American Recovery and Reinvestment Act

Office of Inspector General
U.S. Department of State
Washington, D.C.

Cotton & Company, LLP (referred to as “we” in this letter), has performed an audit of the
International Boundary and Water Commission’s (IBWC) construction contract with Sun Belt
Builders, Inc. (SBBI), using funds provided by the American Recovery and Reinvestment Act
(Recovery Act). We evaluated SBBI’s compliance with relevant Federal laws and regulations,
including those of the Recovery Act; adequacy of processes and systems in place to collect
information required to be reported by the Recovery Act; and accuracy and completeness of
required report submissions. This performance audit, performed under Contract No. S-AQM-
PD-04-D-0035, was designed to meet the objective identified in the section “Objective” and
further defined in Appendix A, “Scope and Methodology,” in this report.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.


COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Partner


Alexandria, Virginia
September 2011




                                      UNCLASSIFIED

                                UNCLASSIFIED




ACRONYMS

Department     Department of State

FAR            Federal Acquisition Regulation

IBWC           International Boundary and Water Commission

OIG            Office of Inspector General

Recovery Act   American Recovery and Reinvestment Act of 2009

SBBI           Sun Belt Builders, Inc.

SF             standard form




                                UNCLASSIFIED

                                     UNCLASSIFIED



                                   TABLE OF CONTENTS


Section                                                                           Page
Executive Summary                                                                     1
Background                                                                            1
Objective                                                                             2
Results of Audit                                                                      2
   Finding A. Contractor Did Not Comply With All Contract Terms and Conditions        3

   Finding B. Required Subcontractor Forms and Certifications Were Not Obtained       5

   Finding C. Subcontractor Payments Were Untimely                                    6

   Finding D. Buy American Act Controls Were Not in Place                             7

   Finding E. Recovery Act Labor Reporting Was Inaccurate and Incomplete              8

List of Recommendations                                                              11

Appendices
A Scope and Methodology                                                              12

B International Boundary and Water Commission Response                               14





                                     UNCLASSIFIED

                                       UNCLASSIFIED


                                    Executive Summary
       The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this report), to conduct
performance audits of contractors that received funding provided by the American Recovery and
Reinvestment Act of 2009 (Recovery Act) from the International Boundary and Water
Commission (IBWC). The audit objective was to determine whether contractors that received
Recovery Act funds from IBWC complied with relevant Federal laws and regulations, including
those of the Recovery Act; had adequate processes and systems in place to collect information
required to be reported by the Recovery Act; and submitted required reports that are accurate and
complete. One contractor selected for review was Sun Belt Builders, Inc. (SBBI).

       SBBI was awarded two Recovery Act-funded contracts. Contract No. IBM10C0003 was
awarded on October 28, 2009, for $7,481,814 to furnish all labor, materials, and equipment for
construction of improvements on the Hidalgo Phase I & II project. SBBI invoiced and was paid
$2,677,756 for work performed through June 30, 2010.

        Contract No. IBM10C0007 was awarded on December 30, 2009, for $18,898,768 to
furnish all labor, materials, and equipment for construction of improvements to Lateral A to
Donna Pump and Retamal Dike, a Lower Rio Grande Flood Control Project. SBBI invoiced and
was paid $3,999,715 for work performed through June 30, 2010.

        SBBI did not comply with all construction contract terms and conditions or relevant
Federal laws and regulations, including those of the Recovery Act; did not have adequate
processes and systems to collect information required to be reported by the Recovery Act; and
did not provide information in Recovery Act reports that was accurate and complete.

        We discussed tentative results of this audit with SBBI officials during fieldwork and with
IBWC officials on January 12, 2011. We recommended that the IBWC contracting officer
require SBBI to establish procedures for complying with laws and regulations and Recovery Act
requirements, obtain certifications from its subcontractor and any future subcontractors,
implement Buy American Act controls, and ensure that its personnel are aware of
FederalReporting.gov reporting requirements.

        In its response to the draft report (see Appendix C), IBWC generally agreed with the
report’s seven recommendations. Based on the response, OIG considers the recommendations
resolved, and they will be closed pending review and acceptance of documentation for the
actions OIG specified. The responses and OIG’s analyses are presented after each
recommendation.

                                         Background
       IBWC is an international body composed of the United States Section and the Mexican
Section. Each section is administered independently of the other. The United States Section is a
Federal Government agency and has its headquarters in El Paso, Texas. IBWC operates under

                                            1
                                       UNCLASSIFIED
                                                  
                                       UNCLASSIFIED


the foreign policy guidance of the Department of State. The mission of IBWC is to apply the
rights and obligations that the Governments of the United States and Mexico assume under the
numerous boundary and water treaties and related agreements. IBWC’s obligations include
construction, operation, and maintenance of levees and floodway projects along the Rio Grande
River.

        The Recovery Act provided $220 million to IBWC for the Rio Grande Flood Control
System Project to evaluate needed repairs and/or rehabilitation of deficient portions of the flood
control systems, with all funds required to be obligated by September 30, 2010. Repairs and
rehabilitation entail raising levee segments to original design levels and reconstructing segments
where the integrity of the structures has been compromised. The project consists of two primary
phases: the Pre-construction Phase, which involves geotechnical investigations, environmental
documentation, and design, and the Construction Phase, which involves project construction.
IBWC projects can continue to expend Recovery Act funds for contracts as long as those funds
were obligated by September 30, 2010.

       IBWC awarded two Recovery Act-funded contracts to SBBI. Contract No. IBM10C0003
was awarded on October 28, 2009, for $7,481,814 to furnish all labor, materials, and equipment
for construction of improvements on the Hidalgo Phase I & II project. SBBI invoiced and was
paid $2,677,756 for work performed through June 30, 2010. The Notice to Proceed was issued
on November 23, 2009, with a performance period of 434 calendar days.

        Contract No. IBM10C0007 was awarded on December 30, 2009, for $18,898,768 to
furnish all labor, materials, and equipment for construction of improvements to Lateral A to
Donna Pump and Retamal Dike, a Lower Rio Grande Flood Control Project. SBBI invoiced and
was paid $3,999,715 for work performed through June 30, 2010. The Notice to Proceed was
issued on January 20, 2010, with a performance period of 485 calendar days.

                                           Objective
        The audit objective was to determine whether contractors that received Recovery Act
funds from IBWC complied with relevant Federal laws and regulations, including those of the
Recovery Act; had adequate processes and systems in place to collect information required to be
reported by the Recovery Act; and submitted required reports that were accurate and complete.

                                       Results of Audit
        SBBI did not comply with all construction contract terms and conditions or relevant
Federal laws and regulations, including those of the Recovery Act; did not have adequate
processes and systems to collect information required to be reported by the Recovery Act; and
did not provide information in Recovery Act reports that was accurate and complete.




                                            2
                                       UNCLASSIFIED
                                                  
                                              UNCLASSIFIED



Finding A. Contractor Did Not Comply With All Contract Terms and
Conditions
        The contractor SBBI and its subcontractors did not comply with all terms and conditions
of SBBI’s Recovery Act construction contract. SBBI did not have controls in place to ensure
that subcontractors were paying their employees in accordance with the Davis-Bacon Act; used
E-Verify and obtained completed Department of Homeland Security Forms I-9, Employment
Eligibility Verification, for all employees; developed codes of business ethics and conduct and
internal control systems; and implemented affirmative action in accordance with the contractual
requirements.

        The Davis Bacon Act, outlined in the Federal Acquisition Regulation (FAR),1 requires
that laborers be paid “the full amount of wages and bona fide fringe benefits (or cash equivalents
thereof) due at time of payment computed at rates not less than those contained in the wage
determination of the Secretary of Labor.” One of 11 subcontractors tested for compliance with
the Act consistently paid one employee an amount less than that required in the Labor Rate
Schedule outlined in the contract.

        E-Verify is an Internet-based free program run by the U.S. Government that compares
information about an employee’s employment eligibility from Form I-9 with data from U.S.
Government records. If the information matches, that employee is eligible to work in the United
States. If there is a mismatch, E-Verify alerts the employer, and the employee is allowed to work
while he or she resolves the problem within 8 days. The program is operated by the Department
of Homeland Security in partnership with the Social Security Administration. The FAR2 requires
Federal contractors and subcontractors to enroll “as a Federal Contractor in the E-Verify
program within 30 calendar days” of contract award. The three SBBI subcontractors tested for
employment eligibility compliance did not enroll as Federal contractors in E-Verify at the time
of award, as required by the FAR.3

        Instructions for Form I-9 require all employees (citizen and noncitizens) hired after
November 6, 1986, and working in the United States to complete the form, and employers must
retain the completed forms for 3 years after the date of hire or 1 year after the date employment
ends, whichever is later. Two of the three SBBI subcontractors tested did not ensure
employment eligibility verification or perform procedures to ensure verification of citizenship.
Specifically, Salinas Engineering & Associates and Valley Trimming Tree Experts did not have
completed Form I-9 certifications on file for all employees.

       SBBI and one subcontractor tested, G.R. Birdwell Construction, did not have a written
code of business ethics in place as required by the FAR.4 Specifically, contractors and
subcontractors that receive more than $5 million in Federal funding are required to have, “within

1
  FAR 52.222-6(b)(1), “Davis Bacon Act.” (July 2005) 

2
  FAR 52.222-54(b)(1)(i), “Employment Eligibility Verification.” (Jan. 2009) 

3
  FAR 52.222-54(e).

4
  FAR 52.203-13(b)(1)(i)-(b)(1)(ii) and (d), “Contractor Code of Business Ethics and Conduct.” (Dec. 2008)


                                                   3
                                              UNCLASSIFIED
                                                          
                                            UNCLASSIFIED


30 days after contract award,” a “written code of business ethics and conduct” and to make the
code available to every employee working on the contract.

        Additionally, the same subcontractor did not provide evidence that it had an ongoing
ethics awareness and compliance program and internal control system, as required by the FAR.5
The FAR6 requires contractors to “exercise due diligence to prevent and detect criminal conduct”
and to “otherwise promote an organizational culture that encourages ethical conduct and a
commitment to compliance with the law.”

        Finally, the subcontractor had no controls in place and did not ensure compliance with
affirmative action. The FAR7 requires the contractor and subcontractor to take “affirmative
action to ensure equal employment opportunity” and requires the contractor’s compliance to be
“based upon its effort to achieve maximum results from its actions.” The FAR8 further requires
the efforts to be fully documented and affirmative action steps to be implemented.

        SBBI personnel stated that they were unaware of the requirement for a written code of
business ethics. As for subcontractor noncompliance, SBBI representatives stated that they rely
on the subcontractors to follow requirements in their subcontract agreements. Without adequate
policies in place and proper adherence to those policies, there is an increased risk of improper
conduct in connection with Federally funded contracts.

        Recommendation 1. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and
        IBM10C0007 require the contractor Sun Belt Builders, Inc., to implement procedures to
        ensure that it and its subcontractors comply with Federal Acquisition Regulation
        requirements as they pertain to paying employees proper rates, enrolling as a Federal
        contractor, ensuring employment eligibility, creating a code of business ethics and
        conduct and internal control system, and ensuring affirmative action.

        IBWC Response: IBWC stated that it would request that SBBI certify implementation
        of such procedures on or before August 30, 2011.

        OIG Analysis: OIG considers the recommendation resolved. The recommendation can
        be closed pending OIG’s review and acceptance of documentation showing SBBI’s
        certification for such procedures.




5
  FAR 52.203-13(c) and (d). 

6
  FAR 52-203-13(b)(2)(i)-(b)(2)(ii). 

7
  FAR 52.222-27(g), “Affirmative Action Compliance Requirements for Construction.” (Feb. 1999) 

8
  Ibid. 


                                                 4
                                            UNCLASSIFIED
                                                        
                                            UNCLASSIFIED



Finding B. Required Subcontractor Forms and Certifications Were Not
Obtained
       The contractor SBBI did not obtain all required forms from its subcontractors. The FAR9
requires contractors to deliver to the contracting officer a completed Office of Management and
Budget standard form (SF) 1413, Statement and Acknowledgment, for each subcontract for
construction within the United States “within 14 days after the award of any subsequently
awarded subcontract.” This form represents the subcontractor’s acknowledgement of some of
the FAR clauses included in subcontractor contracts. SBBI did not obtain signed and dated SFs
1413 from three of its 18 subcontractors: TSI Laboratories, Heavy Duty Pressure Washing, and
H2 Environmental Services. SBBI personnel stated that they were not aware that TSI
Laboratories and Heavy Duty Pressure Washing were each lacking a completed SF 1413.
Additionally, SBBI did not have a subcontract or work order agreement in place with H2
Environmental Services, even though this firm performed work over a period of several months.

       Of the 18 subcontracts, six were work order agreements that did not contain the same
contractual terms and conditions as those in the standard subcontract agreement. As a result,
SBBI did not provide notification of rights and responsibilities for some of the applicable FAR
clauses. Instead, the six subcontractors with work orders received notification only of those FAR
clauses listed on their SFs 1413.

        SBBI did not obtain certification from all 18 subcontractors, stating that at the time of
award, “the subcontractor, or its principals, is or is not debarred, suspended, or proposed for
debarment by the Federal Government” in accordance with the FAR.10 SBBI representatives
stated that they did not obtain the certifications because they were unaware of the requirement.

        The failure to obtain required forms and certifications could result in subcontractors
being unaware of applicable FAR clauses and/or of subcontracts being awarded to companies
that have been debarred, suspended, or proposed for debarment. We were able to verify that the
subcontractors were not included in the Excluded Parties List System, which is an electronic
Web-based system that identifies those parties excluded from receiving Federal contracts.

        Recommendation 2. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and
        IBM10C0007 ensure that the contractor Sun Belt Builders, Inc. (SBBI), requires its
        subcontractors to submit Office of Management and Budget Standard Forms 1413,
        Statement and Acknowledgement, and require SBBI to provide these forms to IBWC.

        IBWC Response: IBWC stated that it would require SBBI to submit Standard Forms
        1413 before August 30, 2011. IBWC further stated that it had already implemented


9
 FAR 52.222-11(d)(2), “Subcontracts (Labor Standards).” (July 2005) 

10
  FAR 52.209-6(b), “Protecting the Government’s Interest When Subcontracting With Contractors Debarred, 

Suspended, or Proposed for Debarment.” (Sept. 2006)


                                                 5
                                            UNCLASSIFIED
                                                        
                                               UNCLASSIFIED


           changes to the payment application process to ensure that the contracting officer had
           confirmed receipt of the forms and that all subcontractors had been accounted for.

           OIG Analysis: OIG considers the recommendation resolved. The recommendation can
           be closed pending OIG’s review and acceptance of documentation showing IBWC’s
           requirement for subcontractors to submit Standard Forms 1413 and the requirement for
           SBBI to provide the forms to IBWC.

           Recommendation 3. We recommend that the International Boundary and Water
           Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and
           IBM10C0007 ensure that the contractor Sun Belt Builders, Inc., obtains certifications
           from all subcontractors confirming that they or their principals are not debarred,
           suspended, or proposed for debarment.

           IBWC Response: IBWC stated it “will require” SBBI to submit certification, on or
           before August 30, 2011, showing that all subcontractors are not debarred, suspended, or
           proposed for debarment.

           OIG Analysis: OIG considers the recommendation resolved. The recommendation can
           be closed pending OIG’s review and acceptance of documentation of SBBI’s certification
           confirming that the subcontractors are not debarred, suspended, or proposed for
           debarment.

Finding C. Subcontractor Payments Were Untimely
        The contractor SBBI did not consistently pay subcontractors in a timely manner or pay
the required interest for payment made after the required timeframe. The FAR11 requires
contractors to pay subcontractors for satisfactory performance not later than 7 days from the
receipt of payment by the contractor for work performed under the contract. The FAR12 outlines
interest to be paid to the subcontractor for late payments beginning the 8th day after payment has
been received by the contractor until the date the subcontractor is paid at the computed interest
rate published in the Federal Register. SBBI did not pay three of the 26 invoices reviewed in
accordance with the FAR, and no interest was paid.

        SBBI attributed late payments to high turnover in its accounts payable department and
delays in receiving project management approval. SBBI owed the subcontractors interest
payments on the three late-paid invoices.

           Recommendation 4. We recommend that the International Boundary and Water
           Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and
           IBM10C0007 ensure that the contractor Sun Belt Builders, Inc., pays its subcontractors in
           accordance with the required timeframe or pay interest for each day payment is late.

11
     FAR 52.232-27(c)(1), “Prompt Payment for Construction Contracts.” (Oct. 2008)
12
     FAR 52.232-27(c)(2)(i)-(c)(2)(ii).

                                                    6
                                               UNCLASSIFIED
                                                           
                                           UNCLASSIFIED




        IBWC Response: IBWC stated that it would require SBBI to submit certification, on or
        before August 30, 2011, showing that it has implemented procedures to ensure that
        subcontractors are being paid on time or are paying interest for each day payment is late.

        OIG Analysis: OIG considers the recommendation resolved. The recommendation can
        be closed pending OIG’s review and acceptance of documentation showing that IBWC
        obtained the certification requested.

Finding D. Buy American Act Controls Were Not in Place
        The contractor SBBI did not have policies and procedures in place to ensure that all
construction materials used on the construction project were produced in the United States.
Specifically, the FAR13 defines “construction material” as “an article, material, or supply brought
to the construction site” by the contractor or subcontractor “for incorporation into the building or
work.” The FAR14 requires “unless an exception applies, that all iron, steel, and other
manufactured goods used as construction material in the project” be produced in the United
States for Recovery Act-funded projects. This clause also implements the “Buy American Act”15
by providing a preference for unmanufactured domestic construction material.

        SBBI relied on the material specification submittal compliance statement from the IBWC
contracting officer’s representative as certification that materials were in compliance with the
Buy American Act. The contracting officer’s representative determined, however, only whether
material specifications submitted were in compliance with the contract specifications, not
whether the materials were Buy American Act compliant. We were able to determine that all but
one type of materials used as of June 30, 2010, were Buy American Act compliant. There was
no assurance that the PVC pipe used in Contract No. IBM10C0003 was produced in the United
States.

        Without procedures to ensure that materials were produced in the United States, a
contractor and/or a subcontractor could be in violation of the Buy American Act. Corrective
actions for violating the act can include the improperly purchased foreign-manufactured goods
being removed or replaced, the amount of the award being reduced, or even future funds being
withheld.

        Recommendation 5. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and
        IBM10C0007 require the contractor Sun Belt Builders, Inc., to establish procedures to
        ensure that materials purchased for American Recovery and Reinvestment Act
        construction projects are in compliance with the Buy American Act.


13
   FAR 52.225-21(a), “Required Use of American Iron, Steel, and Other Manufactured Goods–Buy American Act–

Construction Materials.” (Mar. 2009)

14
   FAR 52.225-21(b)(1)(i)-(b)(1)(ii). 

15
   41 U.S.C. §§ 8301-05.


                                                7
                                           UNCLASSIFIED
                                                      
                                              UNCLASSIFIED


           IBWC Response: IBWC stated that it “has been requiring contractors to comply with
           the Buy America Act” and that a “pre-requirement” for contractors before they receive a
           Notice to Proceed from IBWC is for the contractor to identify a Quality Control Program
           Manager, who will implement the Buy America Act. IBWC further stated that
           “responsibility and the ramifications for non-compliance with the Act [are] clearly
           addressed at each pre-construction conference” and that material not in compliance with
           the Buy America Act “will not be paid for and may need to be removed at contractor’s
           expense.” IBWC also stated that its Contracting Officer’s Representatives for each
           project will ensure the acceptability of material furnished by the prime contractor and its
           subcontractors before “acceptance of any payment application” and that the contractor
           “will be asked to certify that it has an established Buy American program in effect under
           these contracts.”

           OIG Analysis: OIG considers the recommendation resolved. The recommendation can
           be closed pending OIG’s review and acceptance of documentation showing the
           procedures the contractor has established to ensure materials purchased are in compliance
           with the Buy American Act program.

           Recommendation 6. We recommend that the International Boundary and Water
           Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and
           IBM10C0007 require the contractor Sun Belt Builders, Inc., to obtain documentation
           showing that the PVC pipe used in Contract No. IBM10C0003 was produced in the
           United States or was subject to an exception under Federal Acquisition Regulation and
           Buy American Act requirements.

           IBWC Response: IBWC stated that it would require SBBI to obtain documentation, on
           or before August 30, 2011, pertaining to the PVC pipe.

           OIG Analysis: OIG considers the recommendation resolved. The recommendation can
           be closed pending OIG’s review and acceptance of SBBI’s documentation pertaining to
           the PVC pipe.

Finding E. Recovery Act Labor Reporting Was Inaccurate and Incomplete

        The contractor SBBI incorrectly calculated and reported the number of jobs created and
retained for both contracts in two of two reportable periods. Specifically, SBBI calculated jobs
by comparing the total number of employees at the end of previous reporting periods with the
total number of employees at the end of the current reporting period. Instead, SBBI should have
reported the number of full-time-equivalent employees calculated cumulatively as all hours
worked divided by the number of hours in a full-time schedule. This information is explained in
the FAR16 and on the Web site FederalReporting.gov, “Frequently Asked Questions for Federal
Contractors.” SBBI officials stated that they were not aware that specific calculation guidance
was available.

16
     FAR 52.204-11(a), “American Recovery and Reinvestment Act Reporting Requirements.” (Mar. 2009)

                                                   8
                                              UNCLASSIFIED
                                                         
                                             UNCLASSIFIED


       SBBI incorrectly reported the total amount of Recovery Act funds invoiced during the
second quarter of 2010. The FAR17 requires contractors to report the amount of Recovery Act
funds invoiced for the reporting period. SBBI incorrectly included amounts for work performed
under both contracts during the month of June but that was not invoiced until July 2010.

       Also, SBBI did not submit correct and complete reports for subcontractors on
FederalReporting.gov, as required by the FAR,18 for its Recovery Act construction contracts.
The contractor is required to report specific information for “any first-tier subcontract funded in
whole or in part under the Recovery Act that is over $25,000.” This information includes the
subcontractor business details, funding agency, description of products or services provided
under the contract, and place of performance. Specifically, SBBI

       	    Incorrectly reported funds awarded to one of 17 subcontractors under the name and Dun
             and Bradstreet Number of a different company that was not a subcontractor on the
             contract.

       	    Did not report nine of 17 subcontractors in one or more quarters in which valid 

             subcontracts were in place. 


       	    Incorrectly reported the award dollar value for five of 17 subcontractors in one or more
             quarters.

       	    Incorrectly reported the award date for two of 17 subcontractors in one or more quarters.

       Additionally, reporting at the contractor level was not performed in a timely manner or
performed accurately. For example, SBBI

        	   Incorrectly reported the contract award date for one contract in two of the three reporting
             periods reviewed.

        	   Submitted required quarterly reports late for both contracts under all three of the
             reporting periods reviewed.

        	   Inaccurately and inconsistently reported executive officer compensation for both
             contracts in all three reporting periods reviewed.

        SBBI officials stated that these conditions occurred because personnel were unfamiliar
with or did not understand reporting regulations and that no controls were in place to ensure that
data reported was accurate and complete. Without complete and accurate reporting, all contract
information is not available to the U.S. Government and to the public, thereby failing to meet the
transparency goal of the Recovery Act.



17
     FAR 52.204-11(d)(2).
18
     FAR 52.204-11(d)(10).

                                                  9
                                             UNCLASSIFIED
                                                       
                                UNCLASSIFIED


Recommendation 7. We recommend that the International Boundary and Water
Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and
IBM10C0007 require the contractor Sun Belt Builders, Inc. (SBBI), to ensure that its
personnel are aware of FederalReporting.gov reporting requirements under its Recovery
and Reinvestment Act construction contracts and that SBBI prepares and submits
required reports that are complete and accurate.

IBWC Response: IBWC stated that it would require Recovery Act recipients to certify
that its Recovery Act reporting specialists have taken the seven training webinars within
60 days of the response to the audit.

OIG Analysis: OIG considers the recommendation resolved. The recommendation can
be closed pending OIG’s review and acceptance of documentation showing that IBWC
has implemented requirements for SBBI, Inc., and other Recovery Act recipients to take
the online training pertaining to FederalReporting.gov reporting requirements.




                                     10
                                UNCLASSIFIED
                                          
                                       UNCLASSIFIED



                                 List of Recommendations
Recommendation 1. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and IBM10C0007 require the
contractor Sun Belt Builders, Inc., to implement procedures to ensure that it and its
subcontractors comply with Federal Acquisition Regulation requirements as they pertain to
paying employees proper rates, enrolling as a Federal contractor, ensuring employment
eligibility, creating a code of business ethics and conduct, and ensuring affirmative action.

Recommendation 2. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and IBM10C0007 ensure that
the contractor Sun Belt Builders, Inc. (SBBI), requires its subcontractors to submit Office of
Management and Budget Standard Forms 1413, Statement and Acknowledgement, and requires
SBBI to provide these forms to IBWC.

Recommendation 3. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and IBM10C0007 ensure that
the contractor Sun Belt Builders, Inc., obtains certifications from all subcontractors confirming
that they or their principals are not debarred, suspended, or proposed for debarment.

Recommendation 4. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and IBM10C0007 ensure that
the contractor Sun Belt Builders, Inc., pays its subcontractors in accordance with the required
timeframe or pay interest for each day payment is late.

Recommendation 5. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and IBM10C0007 require the
contractor Sun Belt Builders, Inc., to establish procedures to ensure that materials purchased for
American Recovery and Reinvestment Act construction projects are in compliance with the Buy
American Act.

Recommendation 6. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and IBM10C0007 require the
contractor Sun Belt Builders, Inc., to obtain documentation showing that the PVC pipe used in
Contract No. IBM10C0003 was produced in the United States or was subject to an exception
under Federal Acquisition Regulation and Buy American Act requirements.

Recommendation 7. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0003 and IBM10C0007 require the
contractor Sun Belt Builders, Inc. (SBBI), to ensure that its personnel are aware of
FederalReporting.gov reporting requirements under its Recovery and Reinvestment Act
construction contracts and that SBBI prepares and submits required reports that are complete and
accurate.


                                            11
                                       UNCLASSIFIED
                                                  
                                             UNCLASSIFIED



                                                                                                 Appendix A

                                       Scope and Methodology
         The Department of State, Office of Inspector General, Office of Audits, engaged Cotton
& Company, LLP (referred to as “we” in this appendix), to conduct performance audits of
contractors that received American Recovery and Reinvestment Act (Recovery Act) funds from
the International Boundary and Water Commission (IBWC). One of the contractors selected for
review was Sun Belt Builders, Inc. (SBBI). The audit included a review of Recovery Act funds
expended through June 30, 2010. Fieldwork was conducted in September 2010 at SBBI
headquarters in Sonoita, Arizona.

        We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objective.

        To meet our audit objective, we used the following methodology:

        	 Reviewed documentation available on the Internet for SBBI and its subcontractors to
           evaluate their eligibility to perform on U.S. Government contracts and validate the
           organization’s entity status.

        	 Selected and tested a sample of Recovery Act reports on the Web site
           FederalReporting.gov to determine whether information reported was accurate and
           supported.

        	 Determined whether SBBI had established and functioning processes to ensure
           compliance with Buy American Act requirements.

        	 Selected and tested a sample of SBBI- and subcontractor-certified payrolls to verify
           compliance with Davis-Bacon Act1 and Copeland Act2 requirements and to verify
           that processes were in place to validate employment eligibility of those performing on
           the contract.

        	 Reviewed and evaluated subcontracts executed by SBBI to ensure inclusion of proper
           clauses, receipt of debarment certifications, notification made to IBWC of active
           subcontracts, and timely payments.


1
  The Davis-Bacon Act requires Federal contractors to pay prevailing wages, as defined by the Wage and Hour
Division of the U.S. Department of Labor on Federally funded or assisted construction projects.
2
  The Copeland “Anti-Kickback” Act prohibits federal contractors or subcontractors engaged in building
construction or repair from inducing an employee to give up compensation.

                                                  12
                                             UNCLASSIFIED
                                                         
                                        UNCLASSIFIED



       	 Evaluated whether SBBI and its subcontractors had proper programs in place to
          ensure compliance with code of business ethics, equal employment opportunity, and
          affirmative action requirements.

Review of Internal Controls

       We reviewed the contractor SBBI’s controls to ensure SBBI’s own and subcontractor
compliance with contractual and regulatory requirements and determined the following:

    	 SBBI did not have appropriate controls established to ensure compliance with contractual
       and regulatory requirements.
    	 SBBI did not have controls established to ensure that its subcontractors complied with
       Federal Acquisition Regulation requirements as they pertain to paying subcontractors in a
       timely manner, paying employees the appropriate rate, or ensuring employment
       eligibility.
     SBBI did not have a process to ensure that its subcontractors had corporate ethics
       programs or internal control systems.
     SBBI did not have controls established to ensure that subcontractors complied with
       affirmative action regulatory requirements.
     SBBI had not implemented controls to ensure that construction materials met Buy
       American Act requirements.
     SBBI did not have appropriate controls established to submit accurate Recovery Act
       reports.

       Implementing recommendations contained in the report will improve controls over
ensuring compliance with required laws and regulations and over accurately reporting Recovery
Act spending to the public.
 
Use of Computer-Processed Data

        We used payroll files, job cost data, and other financial reports from systems of the
contractor SBBI to test the accuracy of SBBI’s reporting of information on the Web site
FederalReporting.gov. We also validated expenditures listed in IBWC’s budgetary and billing
systems to ensure accuracy of reporting on FederalReporting.gov. We found no unexplained
discrepancies in the expenditure data reported, but we did find inaccuracies in the data reported
on FederalReporting.gov. These errors occurred because SBBI personnel misunderstood the
reporting requirements and were not caused by automated data system issues.
 
                                                                                                     
                               




                                             13
                                        UNCLASSIFIED
                                                  
                         UNCLASSIFIED



                                                                                          Appendix B

               INTERNATIONAL BOUNDARY AND WATER COMMISSION
                         UNITED STATES AND MEXICO

                                    August 4, 2011




United States Department of State and the Broadcasting Board of GOllernors
Office of Inspector General
Attn: Evelyn R. Klemstine, Assistant Inspeclor General for Audits
2201 C. Street. N.W.
Washington. D.C. 20520-0308

Subjed: OIG Audit of International Boundary and Water Commission Construction
Contract with Sun Belt Builders, Inc.

Dear Ms. Klemstine:

We are pleased to provide you the attached responses to the findings and
recommendations shown in the draft audit report entitled ~Audit of International
Boundary and Water Commission Construction Contract with , Sun Belt Builders, Inc
using Funds provided by the American Recovery and Reinvestment Act Draft Report
dated June 2011 -.

We note that improvements have already been made in the USIBWC Acquisition
Division in response to the recommendations provided in the audit report, and specific
responses to each finding and recommendation are provided.




Attachment
 As Stated

cc: (b) (6)




  The Commons. Building C, SUite 100 _ 4171 N Mesa Street _ EI Paso , Texas 79902· 1441
             (915) 832-4100 . Fax: (915) 832-4190 _ hltp.//www ibwc gall




                              14 

                         UNCLASSIFIED
                                       
                  UNCLASSIFIED





1< R_mrrumda_ 1 < WI> r _ d that Ih<I       USI8WCc",~"••       mg   <>ffJcer for
                 IBlln0Cll003 m:t IBM1OCOOO7                         _
                 Inc:. to                              ensum that it and
                                                                     t"



                               ifte ronIractor   to   oortify i~li1atiiOn: of
                            31)<   :roll.




                              t:tle rontract.or to submit all OMIl SF 141,39
                                                               clJq.. 10 \he
                                                                to ensure that
                                                                           """"




                       15 

                  UNCLASSIFIED

                                
          UNCLASSIFIED





(b) (6)




               16 

          UNCLASSIFIED

                 
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

